Superior Court of Washington
County of
In re:
Sylvia Black
Petitioners),
and
Christine Vitello, SPCA, et. al.,
Respondents).

No.
Declaration of
Svlvia Blacki

[Name]
(Optional Use)
(DCLR)

This declaration is made by:
Name:

Svlvia Black

Age:
Of Legal Age
Relationship to the parties in this action: Self
I Declare:
I declare that I have mailed a copy of this appeal to Attorney Alan Donatello, and the Supreme
Court of the United States.

RECEIVED
Declaration (DCLR) - Page 1 of]__
WPF DRPSCU 01.0100 (6/2006)

JUL 1 2 2021
OFFICE OF THE CLERK
SUPREME COURT; U.S.

(Attach Additional Pages if Necessary and Number Them.)
I declare under penalty of perjury under the laws of the state of Washington that the foregoing isytrue and
correct.

H

Sign*

7ISUMI

(jl OkfA

/

S-

___ on (Date)___

Print orr/fype Name

if Declarant

Do not attach financial records, personal health care records or confidential
reports to this declaration. Such records should be served on the other party and
filed with the court using one of these cover sheets:
1) Sealed Financial Source Documents (WPF DRPSCU 09.0220) for financial records.
2) Sealed Personal Health Care Records (WPF DRPSCU 09.0260) for health records.
3) Sealed Confidential Report (WPF DRPSCU 09.270) for confidential reports.
If filed separately using a cover sheet, the records will be sealed to protect your
privacy (although they will be available to all parties in the case, their attorneys,
court personnel and certain state agencies and boards.) See GR 22(C)(2).

dL

Declaration (DCLR) - Page 2 of
WPF DRPSCU 01.0100 (6T2006)

